<html>
<title> - NOMINATION HEARING FOR DIRECTOR OF THE GOVERNMENT PUBLISHING OFFICE</title>
<body><pre>[Senate Hearing 116-135]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-135

                    NOMINATION HEARING FOR DIRECTOR
                  OF THE GOVERNMENT PUBLISHING OFFICE

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2019

                               __________

    Printed for the use of the Committee on Rules and Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on http://www.govinfo.gov                 
                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-674                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                 
                 
                 
                 
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hugh Nathanial Halpern, Nominee for Director of the Government 
  Publishing Office..............................................     2

                         Prepared Statement of:

Hugh Nathanial Halpern, Nominee for Director of the Government 
  Publishing Office..............................................     9

                  Materials Submitted for the Record:

Letter of Endorsement............................................    13

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Hugh Nathanial Halpern, Nominee for Director of the 
  Government Publishing Office...................................    14
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Hugh Nathanial Halpern, Nominee for Director of the Government 
  Publishing Office..............................................    17
Hon. Hyde-Smith, a U.S. Senator from the State of Mississippi to 
  Hugh Nathanial Halpern, Nominee for Director of the Government 
  Publishing Office..............................................    21
Hon. Angus S. King, Jr., a U.S. Senator from the State of Maine 
  to Hugh Nathanial Halpern, Nominee for Director of the 
  Government Publishing Office...................................    23

 
                    NOMINATION HEARING FOR DIRECTOR
                  OF THE GOVERNMENT PUBLISHING OFFICE

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:09 a.m., in 
Room 301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt and Capito.
    Also Present: Deb Fischer, Tom Udall, and Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee will come to order. Good 
morning. Glad to start our second hearing this morning and 
welcome my colleagues and our nominee to today's hearing. 
Shortly we are going to hear from Hugh Halpern, the President's 
nominee to be the Director of the Government Publishing Office. 
Before we start that, I want to extend my congratulations, 
Hugh, to you on your nomination. Of course, you and I worked 
together in the House and Senator Capito sitting here beside 
me, a member of the Rules Committee, when you were a critical 
staffer on that committee. We are both glad to be here with 
you.
    Most recently, Hugh served as the Director of floor 
operations in the Office of the Speaker of the House where both 
sides of the aisle have always appreciated his dedicated 
service. In 2018, Mr. Halpern was awarded the John W. McCormick 
Award of Excellence to Congressional Employees for recognition 
of lifetime bipartisan service in the House. It is the highest 
award given to the staff in the House and I think that is a 
reflection of you and how well you were appreciated and 
respected there. I think those same abilities can be 
successful, if you have the chance, to lead the Government 
Publishing Office.
    I want to recognize your family members that are here with 
you, one, your son Ari, your wife Jennifer, your dad David, and 
there may be another family member on the front row or just a 
good friend on the front row. I am glad all of them are here 
with you and with us today.
    This is an agency that has an incredibly long record that 
goes back to the Civil War. It began its work as a critical 
part of the Government over 150 years ago. It was obviously 
created to be the Government's official printer, and since its 
founding, it has produced and distributed Government documents 
and products for the American public today. The GPO mission is 
to keep America informed as the official, digital, and secure 
resource for producing, preserving, and distributing official 
Federal Government Publications and information products for 
Congress, for Federal agencies, and for the American public.
    While the mission remains, evolving technology has really 
changed both stakeholder expectations and how that job is done. 
There are still significant numbers of employees there but one 
time I think that may have been an agency that had as many as 
12,000 employees--a big facility to be responsible for--
employees that I think are ready for new leadership and I 
believe ready for your leadership. I look forward to hearing 
your thoughts. Senator Capito, is there anything you want to 
say at the start?
    Senator Capito. No, I will just wait for the testimony then 
ask questions. Thank you.
    Chairman Blunt. Alright. Hugh, your full written statement 
will be part of the record, but we would be pleased for you to 
proceed and make whatever statement you would like to this 
morning.

   OPENING STATEMENT OF HUGH NATHANIAL HALPERN, NOMINEE FOR 
          DIRECTOR OF THE GOVERNMENT PUBLISHING OFFICE

    Mr. Halpern. Thank you, Mr. Chairman, Senator Capito. 
Before I start, let me just say that I spent a lot of time 
sitting behind you guys, so being on this side of the table is, 
well, a little different. Thank you very much for having me 
today. I am pleased to appear before you as President Trump's 
nominee to be the next Director of the Government Publishing 
Office. I come to this role as a longtime customer of GPO and 
an advocate for making legislative data more available.
    I was a committee staffer for most of my career, and in 
many of those roles, I was ultimately responsible for the 
committee's document production. When Congress established GPO 
more than 150 years ago, they chartered it as an agency of the 
Legislative branch largely because Congress was to be its 
primary customer. Today, the talented women and men of GPO 
literally work around the clock to produce congressional 
documents, meeting tight deadlines with perfect copy day after 
day. However, during my time as a house staffer, I observed one 
immutable fact: it is really hard to work with GPO.
    As a committee staffer, you generally have two choices to 
produce documents with GPO. One, you can either use their 
proprietary software that doesn't always operate as you would 
expect it to, or two, you can just ship everything to GPO and, 
frankly, kind of hope for the best. Neither of those options 
are particularly good for ensuring the rapid and accurate 
production of congressional documents, particularly in formats 
other than print. We need to reduce the friction between GPO 
and its customers, otherwise those customers will find 
alternatives that don't involve GPO and ultimately that could 
hamper public access to Government information.
    GPO's customers should be able to use commercial, off the 
shelf tools to prepare documents for publication. GPO should 
have the expertise to help their customers fine-tune those 
tools to maintain quality and speed up the workflow. That 
partnership should reinforce GPO's role as the permanent and 
authoritative source for Government information.
    Now, some of these problems are really driven by the design 
of these documents themselves. For instance, the design of a 
committee report has never changed since Congress started 
printing them back in the 1800's. Each time technology changed, 
GPO designed their process to reproduce that same output, often 
at the request of the customer.
    As GPO stands on the precipice of its next major 
technological change, maybe it is time to take a look at how 
congressional documents are designed. For instance, the UK 
parliament updated its document design years ago. They use 
modern designs, print their documents on standard size paper, 
and even use color where it is appropriate.
    We should do the same. GPO would need to partner with this 
committee and its House counterpart to begin the process of 
modernizing congressional documents. But, if this committee is 
willing, I believe that taking a fresh look at the design and 
production of congressional documents will yield benefits to 
Congress and the public alike.
    However, none of this will be possible if GPO's future is 
not secure. As one of the few agencies that works on a cost 
recovery model, GPO is wholly dependent on its customers for 
revenue. The good news is that GPO is on solid financial 
footing, but it also has some notable challenges looming on the 
horizon.
    GPO's main campus is composed of buildings dating back to 
the early 1900's with significant maintenance and upkeep 
issues. Those buildings still have areas that are underutilized 
because GPO's workforce is smaller than it was a few years ago. 
Perhaps most importantly, that workforce is nearing an 
inflection point as more than one-third of GPO's employees will 
be eligible to retire in less than two years.
    However, I prefer to look at those challenges as 
opportunities. They will provide the impetus to update the 
business model, to reduce friction with GPO's customers, and to 
adjust the workforce to meet GPO's customers' needs. In order 
to meet those challenges, I look forward to creating strong 
partnerships: labor and management, Congress and GPO, GPO and 
its customers.
    Should I be confirmed, my commitment is that I will do my 
best to harness GPO's strengths and to put it on a path that 
leads to long-term security. My hope is that you share my 
vision for how to get there and will be a partner as we 
proceed. Mr. Chairman, Senator Capito, thank you for the 
opportunity to appear before you today. I would welcome your 
questions.
    [The prepared statement of Mr. Halpern was submitted for 
the record.]
    Chairman Blunt. Thank you, Mr. Halpern. Senator Capito, do 
you want to start?
    Senator Capito. Sure. Thank you, Mr. Chairman. Well, I am 
really pleased to be here with my friend, Hugh Halpern. In the 
many ways that you have helped me in my service in the House of 
Representatives, not just the Rules Committee, but also House 
Financial Services and as the floor Leader, I know that your 
intellect and organizational skills will really do well at the 
GPO. I really don't have any qualms about saying right away to 
my colleagues over here in the Senate that this should be on 
100 to 0 vote.
    But I did want to ask a question and I did want to bring 
attention to the chairman that not only was Hugh a great person 
to know on the House side, he did have the great wisdom to 
marry somebody from Glendale, West Virginia, which is where I 
am from. So, thank you for that. You know, there has been so 
much instability. You talked about it in your opening 
statement.
    And one of which not having a permanent Director for 
several years. How do you think you can bring that stability 
back to the organization? You mentioned some of the things, 
better working relationship with the staff. You are probably 
looking at a lot of staff that are nearing retirement age. How 
are you going to attract that next generation to fulfill this 
much-needed task?
    Mr. Halpern. You brought up the age of folks with GPO and 
it is interesting because my last boss, Speaker Ryan was my 
first boss who was younger than I was. Coming into GPO, I am 
sort of in the middle of their age cohort there. But the folks 
at GPO have actually done a really good job of keeping the 
agency going without permanent leadership.
    The folks who have come before, all of them have been great 
and have really done a fantastic job on setting the agency on a 
course for stability. But the problem is that the rest of the 
world keeps moving forward and just stability isn't going to 
cut it if GPO is going to continue to be the asset that it is. 
I think as we look at filling a lot of the vacant spots and 
looking at readjusting the mix of folks we have, we need to 
look in both directions. We need to buildup that digital side. 
We need to have a commitment to really making things easier for 
the customer and that is where my experience has been. But we 
also need to preserve some of the artisanal things that GPO is 
really good at doing.
    This is my House manual and I used this book four, five 
times a day when I was working in the Speaker's office. It is 
basically handmade. The leather binding, the foil stamping, the 
thumb indexes, the tabs, and the marbling are all done by hand 
by artisans at GPO. We have to maintain the ability to do that. 
We have to maintain the ability--you know, I know it will come 
as a little bit of a shock that all of the Appropriations work 
may come down to one gigantic document at some point here in 
the near future, but GPO helps ensure that Congress meets its 
deadline.
    In that case, it would be the clerk of the House doing the 
enrolling, making sure that the document that goes to the 
President is the same document that the House and Senate 
passed. We need to maintain all of those capabilities while 
building up the digital side, building on the work that they 
have done, and look into the future that way.
    Senator Capito. Right. We have talked a lot of--and 
actually I was Chair of the Appropriations subcommittee, did 
take a tour of the GPO, did see some of the artists at work 
there, and it really is an amazing thing to see how they create 
such really beautiful documentations. I agree with you we have 
to preserve that. We just had the Secretary of the Smithsonian, 
we had the Librarian of Congress.
    Everybody is talking about digitization and the best way to 
preserve our documents, but also make them accessible. Do you 
see the digitization of documents that come to the GPO as a way 
to open it up to more people? You mentioned two things that 
make it very difficult to work with. Do you see this as making 
it easier?
    Mr. Halpern. Well, I think the thing is that GPO to-date 
has really been a paper first organization. They have started 
the transition to a more digital outlook, but the systems that 
they have got in place currently really look at the digital 
almost as an afterthought. I can get really technical if you 
want, but just look at the text display of the Congressional 
record. What they do is they spit out the columns from the PDF 
document. Well, that is great if you just want the text, but if 
you are trying to repurpose that text then you have got to 
manually go in and take out those line breaks.
    If you look at this from more of a digital first or digital 
parallel perspective, I think you can improve the product that 
GPO is producing in conjunction with its Congressional partners 
and its agency partners while still taking that data and 
producing it, whether it is in print, whether it is for your 
phone, whether it is for your computer screen. Any of those 
media should be easily--it should be available easily on any of 
those media. Today, that is not always the case.
    Senator Capito. Alright. Agree. Thank you and good luck.
    Mr. Halpern. Thank you.
    Chairman Blunt. The workforce there, I believe you said 
that maybe a third of the workforce would be retiring within 
the next----
    Mr. Halpern. Eligible to retire.
    Chairman Blunt. Eligible to retire within the next what 10 
years?
    Mr. Halpern. Two years.
    Chairman Blunt. In the next 2 years?
    Mr. Halpern. By the end of fiscal year 2021.
    Chairman Blunt. That is both a challenge and an opportunity 
as you try to begin to repurpose or restructure some of the 
things you do. That workforce has been represented or at least 
75 percent of it by 11 different labor unions, bargaining 
groups. Do you want to talk a little bit about your ability and 
willingness to work with those bargaining groups?
    Mr. Halpern. Absolutely. The one phrase you are going to 
hear me talk about time and time again are partnerships. While 
I haven't had the experience during my 30 years in the House of 
having to work with a lot of labor units, I am not going to 
approach that any differently than I approached working with 
outside groups that may not necessarily share my view on a 
particular issue or folks across the aisle. It is figuring out 
how we get to a shared destination together.
    You know, ultimately, I think what all of these groups want 
is they want good opportunities for their members, they want to 
be compensated well, and they want a future at the agency. I 
think we are going to have to work together to ensure that all 
of those things come together. You know, given its current 
trajectory, the problem you are going to have is that the 
customers are going to go away. If the customers go away, then 
you are not going to have any jobs.
    What we need to do is have the bargaining units work with 
management as we plot this new course, and it is probably going 
to require some adjustment between the older plant operations 
and some of the newer digital and customer service operations.
    But I don't necessarily see a huge reduction in head count 
in the future. I see more of a change in the mix of folks that 
we have got at the agency and I think that gives us an 
opportunity to work together to try and figure out how that 
works for everybody.
    Chairman Blunt. Well and in the realm of increasing the 
customer base, I think one of the areas where the customer base 
has grown is the secure documents and all of the passports are 
produced by this agency. Many of the various documents that are 
needed to get into facilities and secure documents at 
facilities, is that an area where you would see further 
potential for growth?
    Mr. Halpern. Absolutely. Now, you know, we are working with 
our partners over at the State Department to make sure that as 
we embark on the next iteration of the passport, that continues 
to be one of the most secure documents found any place in the 
world. In terms of some of the other documents, we found 
customers coming to GPO largely because of its expertise in 
this area.
    You know, GPO traditionally has walked kind of a fine line 
here. It should come as no surprise that there are some private 
sector folks who would prefer to get that business themselves. 
My personal view is that GPO should be able to compete on 
quality, on price, and on ability to deliver. By doing that I 
think we will be able to earn business without having to 
actively necessarily market those items. But I think it is an 
area for continued growth.
    Chairman Blunt. We had the Inspector General for GPO in 
recently to talk about his report, which was very concerning. 
Have you had a chance to look at that report?
    Mr. Halpern. I have looked at some of his stuff, yes.
    Chairman Blunt. Any observations you might want to make 
about the report would be welcome. But also the specific 
question is your view of the importance of the role of the 
Inspector General in an organization like this and specifically 
at the organization, if confirmed, you would be running.
    Mr. Halpern. Absolutely. I think any of the folks that I 
have worked with over the years will tell you our ethics and 
good Government guidelines can sometimes yield what you would 
affectionately call a dumb result, but I would much rather know 
that dumb result earlier in the process than later in the 
process. So, I think the IG can bring a really important 
perspective by flagging problem areas that instinctively we 
wouldn't see and flagging them early.
    My plan is for our Inspector General to be an important 
part of our Executive team, for us to meet regularly, and 
really, look to him for advice as we go forward. I know that 
our Inspector General is facing some issues coming up. The 
expiration of his law enforcement authority, things like that. 
I know that they are working with this committee and other 
folks trying to address those problems. But I am very 
supportive of an independent Inspector General.
    Obviously, we need to figure out and make sure that they 
are properly resourced, that they have the authorities that 
they need, and I want to be a partner with both the Inspector 
General and this committee in doing that going forward.
    Chairman Blunt. Well, with respect to the Inspector 
General's report, which I am sure you will look at in great 
detail, you know, everything from concerns about harassment to 
promotion to procurement to use of space are in there. It is 
a--this is an agency that really is ready for somebody to 
settle in, look at all these problems with a commitment to 
solve them. I believe you will have that. One last question. 
Just with the big footprint of space way beyond the current use 
of space, what steps would you take to develop a comprehensive 
space utilization and building maintenance plan?
    Mr. Halpern. Well, you are absolutely right. It is a large 
facility. There is still some underutilized space and some 
unused space as well. I think we need to review what all of 
that looks like. I know that under prior heads of the agency, 
they have leased out a lot of that space to partner agencies. 
You know, bringing folks with shared interests under one roof 
is actually not a bad idea, but we will need to review what 
we've got and what the future looks like for that.
    As we continue to upgrade the physical plant capabilities 
with new presses and things like that, those items are getting 
smaller, so they require less of a footprint and sort of 
figuring out how we arrange all of that stuff so that we are 
using the space to its maximum capability.
    Chairman Blunt. Well, good. Thank you for joining us today, 
Mr. Halpern, sharing your views with the committee. I intend to 
move this nomination quickly so any questions for the record 
need to be in by the end of the working day tomorrow. I would 
like your response to any of those questions to be as soon as 
possible.
    Mr. Halpern. Absolutely.
    [The information referred to was submitted for the record.]
    Chairman Blunt. Hopefully we are able to take action on 
this early next week. With that, the hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   

                                  [all]
</pre></body></html>
